No

IN THE
SUPREME COURT OF THE UNITED STATES

— PETITIONER
1
0 &matt
VS.
/RESPONDENT(S)

RECEIVED
AUG 11 2021E
OREt°12-645

PROOF OF SERVICE

do swear or declare that on this date,
, 204/, as required by Supreme Court Rule 29 I have
Served
e enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
PE ITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party's counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:

ed 6cc-r-r_f /861 gicfStjali
te--/
"(b CAki‘_
Ma_t6t_o ke -it DO

zo370

V. /a 66/
I declare under p alty of perjury that the oegoing i true and correct
Executed on

, 204

/Ott/

